Before the Committee on Transportation and Infrastructure
United States House of Representatives




  For Release on Delivery
  Expected at
                            Federal Highway
  10:00 a.m. EDT
  Wednesday                 Administration’s
  September 5, 2007
  CC-2007-095               Oversight of Structurally
                            Deficient Bridges


                            Statement of
                            The Honorable Calvin L. Scovel III
                            Inspector General
                            U.S. Department of Transportation
Chairman Oberstar, Ranking Member Mica, and Members of the Committee:

Thank you for the opportunity to testify today on the National Bridge Inspection
Program, particularly the Federal Highway Administration’s (FHWA) oversight of
structurally deficient bridges within the National Highway System. This hearing
follows closely the collapse on August 1 of the Interstate 35W bridge in
Minneapolis, which spanned the Mississippi River. I personally visited the site of
this tragedy and saw how cars, buses, trucks, and tons of concrete and twisted
metal were sent into the water. Like you, I mourn the lives that were lost. As you
know, under the current National Bridge Inspection Program, the states, with
oversight by FHWA, are responsible for inspecting bridges on public roads. The
primary purpose is to identify and evaluate bridge deficiencies in order to ensure
public safety. I will assist the Committee and the Secretary of Transportation in
any way I can in determining whether the current program delivers the highest
level of bridge safety and, if not, how it can be improved.

My testimony today is based on work carried out by our audit and engineering
staff concerning bridge safety over the past 3 years. We have also utilized the
engineering expertise of the U.S. Army Corps of Engineers. In March 2006, we
issued a report on FHWA’s oversight of load ratings and postings on structurally
deficient bridges on the National Highway System. 1 We have also performed
audit work on other bridge issues, including bridges destroyed by Hurricane
Katrina, the Zakim Bridge on Boston’s Central Artery/Tunnel Project, and the San
Francisco–Oakland Bay Bridge. Today, I will discuss our previous work dealing
with structurally deficient bridges and make several observations regarding
FHWA’s actions to address our prior recommendations to improve its oversight of
bridges. Specifically:

• Federal oversight of bridge inspections and funding for bridge rehabilitation
  and replacement constitute significant issues for the U.S. Department of
  Transportation (DOT).

• FHWA needs to develop a data-driven, risk-based approach to bridge oversight
  to better identify and target those structurally deficient bridges most in need of
  attention.

• Action can be taken now to strengthen the National Bridge Inspection Program
  and FHWA’s oversight.

1
 OIG Report Number MH–2006–043, “Audit of Oversight of Load Ratings and Postings on Structurally
Deficient Bridges on the National Highway System,” March 21, 2006. OIG reports are available on our
website: www.oig.dot.gov.
Federal Oversight of Bridge Inspections and Funding for Bridge
Rehabilitation and Replacement Constitute Significant Issues for
DOT
Federal oversight of bridge inspections and funding of bridge rehabilitation and
replacement have been significant issues for DOT for years. The safety of the
Nation’s bridges depends upon a complex web of Federal, state, and local
activities, including such items as maintenance and rehabilitation, inspections and
reviews, and load ratings and postings. While states are ultimately responsible for
ensuring that bridges within their jurisdictions are safe, FHWA is responsible for
overseeing the states in this effort, and for providing technical expertise and
guidance in the execution of bridge inspection, repair and maintenance, and
remediation activities.

The National Bridge Inventory comprises data on 599,976 bridges, including
116,086 bridges on the National Highway System, as well as bridges maintained
and operated by various state and local entities. Many bridges require enhanced
attention: nationwide, almost 80,000 bridges are considered functionally obsolete
and nearly 72,500 are structurally deficient. In five states, more than 20 percent of
the bridges are considered structurally deficient. The term “structurally deficient”
refers to bridges that have major deterioration, cracks, or other deficiencies in their
structural components, including decks, girders, or foundations.              Regular
inspections that check for corrosion, decay, and other signs of deterioration are
important tools for ensuring that bridges are safe. In some cases, structurally
deficient bridges require repair of structural components, or even closure. But
most bridges that are classified as structurally deficient can continue to serve
traffic safely if they are properly inspected, the bridges’ maximum load ratings are
properly calculated, and, when necessary, the proper maximum weight limits are
posted.

Of the National Highway System’s bridges, 6,149, or 5.3 percent, are categorized
as structurally deficient. National Highway System bridges carry over 70 percent
of all bridge traffic. The price of repair or remediation of these bridges is high.
An FHWA report issued in January of this year estimated that about $65 billion
could be invested immediately to address current bridge deficiencies.

Bridge safety first emerged as a high-priority issue in the United States in the
1960s. In 1967, corrosion caused the Silver Bridge on the Ohio River between
Ohio and West Virginia to collapse, killing 46 people. In 1968, in hopes of
avoiding further catastrophes, Congress responded by holding hearings on bridge
design, inspection, and maintenance, determining that serious safety concerns and
problems of lost investment and replacement costs “elevate bridge inspection and
maintenance problems to national priority.” In 1971, FHWA issued standards for


                                                                                     2
identifying, inspecting, evaluating, and acting upon bridge deficiencies to ensure
that bridges are safe for the traveling public. However, disaster struck again with
further bridge collapses, including those of the Mianus River Bridge in
Connecticut in 1983 (with 3 deaths), the Schoharie Creek Bridge in New York in
1987 (10 deaths), the Hatchie River Bridge in Tennessee in 1989 (8 deaths), and
the Arroyo Pasajero Bridge (sometimes called Twin Bridges) in California in 1995
(7 deaths). Investigations showed that these collapses were caused at least in part
by structural deficiencies created by the elements. The loss of lives, injuries, and
significant economic impact resulting from these collapses, as well as the recent
Minneapolis bridge collapse, underscore the significance of bridge safety as a
major issue for DOT.


National Bridge Inspection Standards. According to current inspection
standards, when bridge inspectors identify deficiencies that pose safety problems,
a bridge should either be repaired to correct the deficiencies, posted with signs to
restrict the size and weight of vehicles allowed, or, if the deficiencies are serious
enough, closed to vehicular traffic.

While FHWA provides the oversight of state bridge inspections and programs, the
states themselves are responsible for performing actual bridge inspections on
public roads. The inspection standards provide a definition of bridges (greater
than 20 feet long) and outline requirements regarding the frequency of inspections,
qualifications of inspection personnel, and data to be collected. According to the
standards:

• Most bridges are to be inspected at 2-year intervals. 2
• Each state is required to have a bridge inspection organization capable of
  performing inspections, preparing reports, and determining bridge ratings in
  accordance with the American Association of State Highway and
  Transportation Officials (AASHTO) standards and provisions in the Code of
  Federal Regulations.
• Each bridge shall be rated as to its safe load-carrying capacity. If the
  calculated load rating is less than the state’s maximum legal load, the bridge
  must have signs posted as to the maximum permitted load, or be closed.
• The findings and results of bridge inspections, including safe load ratings, shall
  be recorded by state inspectors on standard paper or electronic forms, and
  submitted to the National Bridge Inventory.

Each year, FHWA’s Office of Bridge Technology collects bridge inventory data
from the states for use in updating its inventory. Along with maintaining the

2
    States determine when more frequent inspections are required based on the specific needs of a bridge.


                                                                                                            3
  inventory of public highway bridges, FHWA is responsible for submitting a
  biennial report to Congress on the conditions of all bridges in that inventory.
  FHWA also performs an annual review of each state’s bridge inspection program
  and compliance with inspection standards. Bridge inventory data provide
  important information on bridge location, age, ownership, and condition.


  Structurally Deficient Bridges, Load Ratings, and Postings. A total of 6,149
  National Highway System bridges (of the 116,086 National Highway System
  bridges in the inventory) were classified as structurally deficient as of last month.
  Figure 1 depicts how a bridge can become structurally deficient.


        Figure 1: Water, Salt, Stress, and Corrosion Can Make a Bridge
                              Structurally Deficient
                                                                     Water and deicers
                                                  Standing water                             Speed, surface roughness, and truck
                                                                     corrode steel
                                                  promotes deck                              suspension interact to amplify stress.
                               Debris inhibits                       reinforcement,
                                                  deterioration.
                               deck drainage.                        causing spalling.




Bridge superstructure is                                                                            Debris-clogged joint
susceptible to corrosion, water                                                                     prevents movement
damage, metal fatigue, and stress                                                                   necessary to relieve
caused by vibration.                                                                                superstructure stresses.


                                          Surface corrosion                                         Improper drainage causes
                                                                                                    damage to concrete.

                                           Water movement can scour
          Decay or                         away soil under foundation.
          misalignment                                                                              Crack in substructure
          of bearings                                                                               caused by settling of
                                                                                                    foundation
Source: Illustration by Jana Brenning. Copyright Jana Brenning. Reprinted with permission.
Illustration first appeared in Scientific American, March 1993.




                                                                                                                     4
Table 1 shows the top ten states with the highest proportion of structurally
deficient bridges on the National Highway System in the United States. Table 2
shows the highest average daily traffic (ADT) traveling over structurally deficient
bridges on the National Highway System. The three attachments to my testimony
provide additional details on structurally deficient bridges by state.


       Table 1: Ten Statesa with the Highest Proportions of Structurally
          Deficient Bridges on the National Highway System (NHS)

                                                              Total Number of           Percentage of State’s
                           Total Number of NHS
     State                                               Structurally Deficient NHS     NHS Bridges that are
                                  Bridges
                                                                  Bridges               Structurally Deficient
     Rhode Island                       272                          55                          20.2%
     Pennsylvania                     3,831                         571                          14.9%
     California                       7,467                       1,030                          13.8%
     Vermont                            477                          56                          11.7%
     Alaska                             389                          40                          10.3%
     Michigan                         2,541                         261                          10.3%
     Oklahoma                         2,733                         280                          10.2%
     West Virginia                    1,137                         108                           9.5%
     Massachusetts                    2,020                         187                           9.3%
     Puerto Rico                        580                          50                           8.6%
a
    Includes the District of Columbia and Puerto Rico.
Source: National Bridge Inventory, August 28, 2007.



      Table 2: Ten States with the Most Average Daily Traffic (ADT) over
                      Structurally Deficient NHS Bridges

                                                                               Total ADT over NHS
                                           Total Number of NHS
             State                                                        Structurally Deficient Bridges
                                       Structurally Deficient Bridges
                                                                                    (vehicles)
            California a                             1,030                              64,470,654
            Pennsylvania                               571                              14,568,954
            New York                                   227                               8,923,614
            New Jersey                                 175                               7,630,571
            Massachusetts                              187                               7,301,293
            Illinois                                   297                               7,226,804
            Kentucky                                   113                               6,900,153
            Michigan                                   261                               6,432,596
            Oklahoma                                   280                               5,034,530
            Ohio                                       178                               4,791,339
          a
            Two bridges in California had no reported ADT in the National Bridge Inventory.
          Source: National Bridge Inventory, August 28, 2007.




                                                                                                                 5
Proper reviews of the calculations of a bridge’s maximum safe load ratings are
important because as a bridge ages, corrosion and decay can decrease its capacity
to support vehicles.

The practice of calculating the load rating of structurally deficient bridges and, if
necessary, posting signs to keep heavier vehicles from crossing them, serves to
protect structurally deficient bridges from powerful stresses caused by loads that
exceed a bridge’s capacity. The load rating is a calculation of the weight-carrying
capacity of the bridge and is critical to its safety. A load rating is performed
separately from the bridge inspection, but is based upon design capacities
supplemented with data and observations of the bridge’s physical condition
provided by a bridge inspector. The load rating, expressed in tons, serves as the
basis for posting signs noting the vehicle weight limit restriction, which can be
referred to more simply as the bridge’s maximum weight limit. Some bridges are
weakened to the point that signs must be posted to bar vehicles heavier than the
calculated maximum load.


Federal Funding for the Nation’s Bridges. Congress has long recognized the
vital national interest of assisting states in improving the condition of bridges. In
1978, Congress passed legislation authorizing the Highway Bridge Replacement
and Rehabilitation Program and the Discretionary Bridge Program to provide
states with funds needed to correct structural deficiencies. In 2005, Congress
replaced the Highway Bridge Replacement and Rehabilitation Program and the
Discretionary Bridge Program with the Highway Bridge Program, and broadened
the scope to include systematic preventive maintenance. 3 Overall, a total of $21.6
billion was authorized for the Highway Bridge Program through 2009.

For fiscal year 2007, states were allocated more than $5 billion to be used for
bridge construction, repair, and remediation under the Highway Bridge Program.
According to FHWA officials, while the agency tracks all Federal bridge funding,
its financial management system does not differentiate between spending on
structurally deficient bridges and other bridge-related expenditures. As a result,
FHWA is unable to tell how much of the funding it provides to the states is
actually spent on structurally deficient bridges. As part of our comprehensive
audit of FHWA’s oversight of the bridge program, we will be evaluating this issue
and will report back to the Secretary of Transportation.




3
     Safe, Accountable, Flexible, Efficient Transportation Equity Act—A Legacy for Users, Public Law No.
    109-59 (2005).


                                                                                                      6
FHWA Needs to Develop a Data-Driven, Risk-Based Approach to
Bridge Oversight to Better Identify and Target Those Structurally
Deficient Bridges Most in Need of Attention

Our March 2006 report found that FHWA could improve its oversight of the states
to ensure that maximum weight limit calculations and postings are accurate. The
need for improved oversight was evidenced by our finding that, based on a
statistical projection, the load ratings for as many as 10.5 percent of the
structurally deficient bridges on the National Highway System are inaccurate.4

To address deficiencies in its oversight, we recommended that FHWA develop a
risk-based, data-driven approach with metrics to target the bridge problems most
in need of attention. Since last year, FHWA has taken steps to address these
deficiencies. In April 2006, for example, FHWA convened a working group to
evaluate options and make recommendations for action.5 Based on the work of
this group, FHWA has initiated several specific efforts to improve oversight of
structurally deficient bridges, including load ratings and posting. However, more
action is needed. In the coming months, we plan to continue our evaluation of
these initiatives.


FHWA did not require its Division Offices to analyze bridge inspection data
to better identify and target those structurally deficient bridges most in need
of load limit recalculation and posting. FHWA’s Division Offices in the three
states we reviewed in depth—Massachusetts, New York, and Texas—did not
ensure that the states’ bridge load ratings were properly calculated and
corresponding postings performed. Our statistical sample showed similar
problems nationwide. The FHWA working group identified the agency’s risk
management process as one way to address our findings:

•     For the most recent risk management cycle, the FHWA’s Associate
      Administrator for Infrastructure directed Division Offices, in a memorandum
      dated February 22, 2007, to incorporate an assessment of bridge load rating
      and posting practices into the evaluation of risk for their program areas. As of
      August 23, ten Division Offices had submitted the results of this assessment.
      However, FHWA representatives informed us that they have just begun their
      review and do not know the extent to which Division Offices identified load
      ratings and postings or other potential risks related to bridges.

4
     Derived from a statistical projection based on an analysis of a random sample performed by the U.S.
    Army Corps of Engineers of 67 bridges drawn from all 50 states, the District of Columbia, and Puerto
    Rico. The margin of error is +/- 5.3 percent.
5
    The working group included representatives from the Office of Bridge Technology, Division Offices,
    and the Resource Centers.


                                                                                                      7
•   The February 2007 memorandum also directed Division Offices to conduct an
    in-depth review of bridge load rating and posting practices within the next 3
    years as a supplement to the annual compliance review for the National Bridge
    Inspection Standards. If load rating and posting practices are identified as a
    high risk as part of the risk assessment process, Division Offices must conduct
    the in-depth review within 1 year. Upon completion of an in-depth review,
    according to the February 2007 memorandum, Division Offices must continue
    to monitor load rating and posting procedures as part of the annual review of
    compliance with National Bridge Inspection Standards and the annual risk
    assessment process, and to implement response strategies as warranted.

Going forward, FHWA needs to ensure the effectiveness of these new risk
management initiatives:

•   As part of FHWA’s risk management process, Division Offices are given the
    latitude to analyze, prioritize, and manage identified risks across their program
    areas. FHWA needs to take aggressive action to ensure that the Division
    Offices are conducting a rigorous and thorough assessment of potential risks
    associated with load rating and posting practices of structurally deficient
    bridges as part of the risk assessment process. FHWA should also ensure that
    these evaluations are completed by Division Offices and done in a rigorous and
    thorough manner.

•   Further, FHWA needs to ensure that, if a high-risk area is identified, the
    Division Office follows up with an in-depth review and conducts it in a timely
    and rigorous manner. The recent bridge collapse in Minneapolis has increased
    the urgency of making sure that any potential risks are identified and corrective
    actions taken expeditiously.


The time that FHWA engineers have available for bridge oversight is limited.
An FHWA Division Office exists in every state as well as the District of Columbia
and Puerto Rico. Each FHWA Division Office has a bridge engineer, in some
cases assisted by additional engineering staff, designated to handle Federal bridge
program oversight responsibilities. In addition, FHWA bridge engineers perform
other activities. We found that time constraints restricted bridge engineers’
reviews to only a small percentage of the total number of bridges in the state. For
example, one FHWA engineer in a large state informed us that he spent only about
15 percent of his time on oversight of the bridge inspection program. The
majority of his time was spent providing technical assistance, construction
inspection, and in committee meetings, among other tasks. FHWA needs to
examine whether bridge engineers are devoting sufficient time and effort to


                                                                                   8
examining the structurally deficient bridges most in need of attention, including
those requiring load rating recalculations and postings. Based on the results of this
assessment, FHWA should make the necessary resource decisions to strengthen
oversight in this area.


FHWA would benefit from an oversight program that makes substantially
greater use of data and metrics to target bridge inspections for its compliance
reviews. Given the thousands of bridges that FHWA oversees and the limited
time its engineers have available, a data-driven approach would help FHWA
bridge engineers focus on inspections and compliance reviews. That is, they could
address the bridge problems most in need of attention. FHWA has undertaken
several initiatives to make greater use of such an approach, although more
aggressive action must be taken going forward. Specifically, FHWA has:

•     Modified the Bridge Program Manual 6 to provide better guidance to Division
      Office bridge engineers conducting the annual compliance reviews. The
      FHWA Bridge Program Manual has been revised to specifically define
      FHWA’s expectations for the bridge engineers’ reviews of load ratings and
      postings, including defining the minimum level of review. In particular, the
      revised manual states that bridge engineers should independently review
      Federal and state bridge data to determine how well load rating policies and
      procedures are being implemented. The manual is currently under review by
      FHWA’s legal staff in accordance with the Office of Management and
      Budget’s Good Guidance Practices. It is critical that this manual be finalized
      and distributed to Division Offices as quickly as possible to ensure that FHWA
      engineers have the guidance necessary to make greater use of existing bridge
      data.

•     Implemented new National Bridge Inventory reports that are intended to
      identify problem areas in load rating data. The National Bridge Inventory
      database, which is the official source of nationwide bridge information,
      contains several reporting tools for data analysis, as well as a new module that
      allows the generation of eight different standard load rating and posting reports
      that can, for example, identify bridges that have been reconstructed but that
      have no updated load rating. Problem areas identified through these reports
      should be addressed during the annual compliance review. FHWA has
      proactively distributed these reports to Division Offices. For example,
      according to FHWA, its Illinois Division Office has used the reports to resolve
      data discrepancies with the Illinois Department of Transportation. FHWA

6
    The manual is a collection of all of the basic program and technical information needed by FHWA bridge
    engineers to perform their duties in an efficient and effective manner.


                                                                                                        9
    needs to continue to ensure that these reports are actually being used as a tool
    for identifying and correcting data errors, and not just viewed as a data-
    collection exercise.

•    Agreed to promote greater use of computerized bridge management systems.
    According to FHWA officials, the agency will continue to provide the states
    with technical assistance and training related to the use of automated bridge
    management systems. For example, FHWA and AASHTO developed two
    computerized bridge management programs (Pontis and Virtis) to help states
    better manage bridge inspections.

    To its credit, FHWA's Office of Asset Management also promised to continue
    to provide technical and program assistance to other FHWA offices, partners,
    and customers in the development and implementation of comprehensive
    bridge management systems. FHWA also maintains a Bridge Management
    Information Systems Laboratory to identify and analyze causes and trends of
    deficiencies within the nation's bridge inventory. To fully implement a risk-
    based, data-driven approach, FHWA must aggressively promote the use of
    these computer-based resources going forward. We will assess initiatives such
    as these as we conduct further work on FHWA’s National Bridge Inspection
    Program.


Action Can Be Taken Now to Strengthen the National Bridge
Inspection Program and FHWA’s Oversight

The bridge collapse in Minneapolis has focused attention on FHWA’s oversight of
the Nation’s bridges and underscores the importance of vigilant oversight of
states’ efforts to inspect and repair structurally deficient bridges. FHWA must be
more aggressive in implementing the initiatives it has already identified as being
critical to improving its oversight of structurally deficient bridges, as well as
identifying any other needed changes. As we evaluate the National Bridge
Inspection Program, we will make recommendations where appropriate to improve
the program and how it is implemented by FHWA.

FHWA Needs to Take Aggressive Action Going Forward. The implementation
of FHWA’s recent initiatives to improve oversight of structurally deficient bridges
is the responsibility of its 52 Division Offices. It is too early to tell the extent to
which each Division Office has started to implement these new initiatives, or
whether they are working effectively. FHWA needs to ensure that it carefully
monitors the progress of implementing these initiatives in its Division Offices,
systematically evaluates their effectiveness, and shares lessons learned about what
is working well or not working well in each state. The Minneapolis bridge

                                                                                    10
collapse increases the urgency of making sure that these new initiatives are being
fully implemented in a timely manner and working as intended.

FHWA can take action immediately to improve oversight of the nation’s bridges.
Specifically, FHWA should:

• Identify and target those structurally deficient bridges most in need of
  recalculation of load ratings and postings, using a data-driven, risk-based
  approach.

• Finalize and distribute the revised Bridge Program Manual to the Division
  Offices as quickly as possible and ensure that FHWA engineers make greater
  use of existing bridge data as part of the annual compliance review process.

• Ensure that each of the 52 Division Offices conducts rigorous and thorough
  assessments of any potential risks associated with structurally deficient
  bridges, as directed in February 2007, and define how it will respond to any
  specific high-priority risks that Division Offices have identified.


We Are Undertaking a Comprehensive Audit of the National Bridge
Inspection Program. Shortly after the Minneapolis bridge collapse, the Secretary
of Transportation asked us to undertake an audit of the National Bridge Inspection
Program. Our work will be separate and distinct from the National Transportation
Safety Board’s investigation, which will focus specifically on the events and
conditions that led to the Minneapolis bridge collapse.

Our audit work will proceed in three concurrent phases, with sequential reporting
dates. Specifically, our audit work will focus on the following efforts.

• An assessment of the corrective actions that FHWA has taken to address the
  recommendations we made in our March 2006 report on structurally deficient
  bridges. We have already initiated this effort and plan to issue a report later
  this year.

• A study of Federal funding provided to states for bridge rehabilitation and
  repair. We will assess FHWA’s management and tracking of such funding, the
  extent to which states effectively and efficiently use these funds to repair or
  replace structurally deficient bridges, and whether states are using bridge
  funding for other purposes.

• A comprehensive review of FHWA’s oversight activities to ensure the safety
  of National Highway System bridges across the country.


                                                                               11
Going forward, our overall objective is to evaluate FHWA’s implementation of the
National Bridge Inspection Program and make recommendations for improvement
in order to provide assurance that FHWA is doing everything that should be done
to ensure bridge safety. We will report back to the Committee and the Secretary
of Transportation as we identify additional steps that could be taken to improve
the National Bridge Inspection Program.

Mr. Chairman, this concludes my statement. I would be happy to answer any
questions that you or other members of the Committee may have at this time.




                                                                             12
                                                                                            Attachment 1


              Percentage of National Highway System Bridges that
                  Are Structurally Deficient within Each State




                  AK                 HI
                                                                                          PR




                   0 - 4.9%        5 - 9.9%          10 - 14.9%         15 - 19.9%             20%


   Source: National Bridge Inventory, August 28, 2007.

   Note: No states are within the 15-19.9 percent range. The state with 20 percent is Rhode Island. For the
   District of Columbia, which is not shown on the map, the percentage of National Highway System bridges
   that were structurally deficient is 7.8 percent.




Attachment 1
                                                                          Attachment 2

                    Structurally Deficient Bridges on
              the National Highway System (NHS), by State

                                        Total Number of       Percentage of NHS
                  Total Number of NHS
    State                               NHS Structurally        Bridges that are
                         Bridges
                                        Deficient Bridges     Structurally Deficient
 Alabama                        2,776                   108                     3.9%
 Alaska                           389                    40                    10.3%
 Arizona                        2,631                    26                     1.0%
 Arkansas                       1,929                    43                     2.2%
 California                     7,467                 1,030                    13.8%
 Colorado                       2,212                   136                     6.1%
 Connecticut                    1,571                    66                     4.2%
 Delaware                         250                     0                     0.0%
 District of
 Columbia                         115                    9                    7.8%
 Florida                        4,109                   22                    0.5%
 Georgia                        2,529                   33                    1.3%
 Hawaii                           414                   31                    7.5%
 Idaho                            740                   41                    5.5%
 Illinois                       3,627                  297                    8.2%
 Indiana                        2,447                  108                    4.4%
 Iowa                           1,848                  122                    6.6%
 Kansas                         2,397                   41                    1.7%
 Kentucky                       1,802                  113                    6.3%
 Louisiana                      2,676                   90                    3.4%
 Maine                            448                   28                    6.3%
 Maryland                       1,472                   47                    3.2%
 Massachusetts                  2,020                  187                    9.3%
 Michigan                       2,541                  261                   10.3%
 Minnesota                      1,659                   47                    2.8%
 Mississippi                    2,166                   32                    1.5%
 Missouri                       2,768                  125                    4.5%
 Montana                        1,264                   27                    2.1%
 Nebraska                       1,270                   39                    3.1%
 Nevada                           788                    7                    0.9%
 New
 Hampshire                        684                   46                    6.7%
 New Jersey                     2,503                  175                    7.0%
 New Mexico                     1,782                  105                    5.9%
 New York                       3,580                  227                    6.3%
 North Carolina                 2,638                  160                    6.1%
 North Dakota                     528                    9                    1.7%
 Ohio                           4,148                  178                    4.3%
 Oklahoma                       2,733                  280                   10.2%
 Oregon                         1,520                   99                    6.5%
 Pennsylvania                   3,831                  571                   14.9%
 Puerto Rico                      580                   50                    8.6%
 Rhode Island                     272                   55                   20.2%
 South Carolina                 1,375                  107                    7.8%
 South Dakota                     811                   29                    3.6%
 Tennessee                      3,075                   74                    2.4%
 Texas                         15,302                  184                    1.2%


                                                                                       14
Attachment 2
                                                                                            Attachment 2


                                                  Total Number of       Percentage of NHS
                       Total Number of NHS
        State                                     NHS Structurally        Bridges that are
                              Bridges
                                                  Deficient Bridges     Structurally Deficient
    Utah                               1,104                       69                     6.3%
    Vermont                              477                       56                    11.7%
    Virginia                           3,306                      112                     3.4%
    Washington                         2,325                       89                     3.8%
    West Virginia                      1,137                      108                     9.5%
    Wisconsin                          2,720                      102                     3.8%
    Wyoming                            1,330                      108                     8.1%
    Totals                           116,086                    6,149                     5.3%
 Source: National Bridge Inventory, August 28, 2007.




Attachment 2
                                                                                                 15
                                                                       Attachment 3

Total Average Daily Traffic (ADT) over Structurally Deficient National
                Highway System Bridges, by State

                           Total Number of NHS          Total ADT over NHS Structurally
        State
                       Structurally Deficient Bridges          Deficient Bridges
   Alabama                                       108                         1,843,479
   Alaska                                         40                           195,084
   Arizona                                        26                           330,523
   Arkansas                                       43                           693,481
   California                                  1,030                        64,470,654
   Colorado                                      136                         3,904,935
   Connecticut                                    66                         2,631,506
   Delaware                                        0                                 0
   Dist. of Columbia                               9                           465,950
   Florida                                        22                           826,229
   Georgia                                        33                           720,480
   Hawaii                                         31                           903,595
   Idaho                                          41                           630,490
   Illinois                                      297                         7,226,804
   Indiana                                       108                         1,893,712
   Iowa                                          122                         1,299,190
   Kansas                                         41                           493,375
   Kentucky                                      113                         6,900,153
   Louisiana                                      90                         1,681,910
   Maine                                          28                           244,650
   Maryland                                       47                         2,508,885
   Massachusetts                                 187                         7,301,293
   Michigan                                      261                         6,432,596
   Minnesota                                      47                         1,698,025
   Mississippi                                    32                           217,600
   Missouri                                      125                         3,280,648
   Montana                                        27                           165,610
   Nebraska                                       39                           275,749
   Nevada                                          7                            91,221
   New Hampshire                                  46                         1,297,756
   New Jersey                                    175                         7,630,571
   New Mexico                                    105                           961,623
   New York                                      227                         8,923,614
   North Carolina                                160                         3,396,600
   North Dakota                                    9                            35,555
   Ohio                                          178                         4,791,339
   Oklahoma                                      280                         5,034,530
   Oregon                                         99                         1,223,689
   Pennsylvania                                  571                        14,568,954
   Puerto Rico                                    50                         2,689,250
   Rhode Island                                   55                         2,340,137
   South Carolina                                107                         1,609,250
   South Dakota                                   29                           127,840
   Tennessee                                      74                         3,178,830
   Texas                                         184                         3,391,248




Attachment 3                                                                              16
                                                                                Attachment 3


                                Total Number of NHS            Total ADT over NHS Structurally
          State             Structurally Deficient Bridges            Deficient Bridges

    Utah                                                69                              1,535,767
    Vermont                                             56                                428,464
    Virginia                                           112                              3,300,043
    Washington                                          89                              1,426,717
    West Virginia                                      108                              1,287,250
    Wisconsin                                          102                              2,220,266
    Wyoming                                            108                                255,185
    Totals                                           6,149                          190,982,305

 Source: National Bridge Inventory, August 28, 2007.
 Note: Two bridges in California had no reported ADT in the National Bridge Inventory




Attachment 3                                                                                        17
